                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 4, 2014

Diane T. Wear, WT 4B-K

REQUEST FOR FINAL ACTION – AUDIT 2013-15106 – REVENUE BILLING INVOICE
PREPARATION



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Additionally, based on the actions taken on
Recommendations 1 and 3, no further action is necessary, and we have closed these
recommendations. Please notify us when final action is complete on Recommendations 2
and 4. In accordance with the Inspector General Act of 1978, as amended, the Office of
the Inspector General is required to report to Congress semiannually regarding audits that
remain unresolved after 6 months from the date of report issuance.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact Melissa M.
Neusel, Audit Manager, at (865) 633-7357 or Rick C. Underwood, Director, Corporate
Governance and Finance Audits, at (423) 785-4824. We appreciate the courtesy and
cooperation received from your staff during the audit.




David P. Wheeler
Deputy Assistant Inspector General
 (Audits)
ET 3C-K

MMN:BSC
Attachment
cc: See page 2




      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
      distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
Diane T. Wear
Page 2
September 4, 2014



cc (Attachment):
     George T. Ballew, MR 5F-C
     Leslie C. Bazzoon, WT 4B-K
     Dwain K. Lanier, MR 3K-C
     Bryan L. Johnson, WT 4B-K
     William D. Johnson, WT 7B-K
     Justin C. Maierhofer, WT 7B-K
     Justin M. Mitchell, WT 4B-K
     Richard W. Moore, ET 4C-K
     R. Windle Morgan, WT 4DK
     Daniel P. Pratt, SP 6A-C
     Sidney F. Schaad, SP 5A-C
     John M. Thomas III, MR 6D-C
     TVA Board of Directors
     Jacinda B. Woodward, MR 3H-C
     OIG File No. 2013-15106




                          TVA RESTRICTED INFORMATION
                               TVA RESTRICTED INFORMATION


Office of the Inspector General                                                   Audit Report
                                                                               To the Vice President and
                                                                               Controller, Corporate
                                                                               Accounting




REVENUE BILLING
INVOICE PREPARATION




Audit Team                                                                                                     Audit 2013-15106
Melissa M. Neusel                                                                                             September 4, 2014
Michael P. Anderson
Jennifer R. Torregiano
             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee.


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                Audit Report




ABBREVIATIONS
BDI                        Billing Data Interchange
FY                         Fiscal Year
FCA                        Fuel Cost Adjustment
IEE                        Itron Enterprise Edition
IT                         Information Technology
kW                         Kilowatt
kWh                        Kilowatt Hours
LPC                        Local Power Company
MDM                        Meter Data Management
OIG                        Office of the Inspector General
SOX                        Sarbanes-Oxley
SPP                        Standard Programs and Processes
TVA                        Tennessee Valley Authority




Audit 2013-15106

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 2

FINDINGS ......................................................................................................... 2
    WHOLESALE INVOICES CALCULATED CORRECTLY ................................ 3

    CONTROLS TO PREVENT/DETECT LPC WHOLESALE
    ERRORS ADEQUATE .................................................................................... 5

    ACCEPTABLE IT GENERAL AND APPLICATION LEVEL
    CONTROLS OVER ORACLE UTILITIES ........................................................ 6

RECOMMENDATIONS .................................................................................. 8


APPENDICES
A. OBJECTIVES, SCOPE, AND METHODOLOGY

B. LETTER DATED AUGUST 28, 2014, FROM DIANE T. WEAR TO DAVID P.
   WHEELER




Audit 2013-15106

                                      TVA RESTRICTED INFORMATION
                          Audit 2013-15106 – Revenue Billing
                                  Invoice Preparation
                               EXECUTIVE SUMMARY

    Why the OIG Did This Audit

        The Tennessee Valley Authority (TVA) sells power at wholesale rates to
        155 local power companies (LPC), who then resell the power to their end-
        use customers at retail rates. TVA’s total electricity sales were
        $10.8 billion in fiscal year 2013, and revenue from the LPCs was
        $9.4 billion or 87 percent.

        TVA bills the LPCs based on meter readings for demand (kilowatt [kW])
        and energy (kilowatt hours [kWh]) amounts delivered. The majority of the
        total amount billed on each LPC invoice is demand and energy charges,
        which consists of two components: (1) monthly kW and kWh totals
        comprised of daily meter readings multiplied by (2) rates for the various
        classifications (e.g., residential and commercial/industrial). TVA utilizes
        the software package Oracle Utilities, also referred to as Lodestar, to
        produce the wholesale invoices.

        The Office of the Inspector General (OIG) included a review of the
        Revenue Billing invoice preparation process on its annual audit plan
        because of the significance of LPCs revenue to TVA. We audited the
        Revenue Billing invoice preparation process for the period April 1, 2011,
        through July 31, 2013, to determine if:

        1. Wholesale invoices were calculated correctly.

        2. Controls to prevent/detect invoice errors were adequate.

        3. Oracle Utilities had appropriate/adequate information technology (IT)
           general and application level controls.

        Our audit focused on the Revenue Billing and Power Billing departments’
        roles and responsibilities in the revenue billing process. The Power Billing
        department is responsible for the validity of the demand and energy
        readings in Oracle Utilities. The Revenue Billing department is
        responsible for the accuracy and completeness of amounts invoiced.




Audit 2013-15106                                                               Page i

                            TVA RESTRICTED INFORMATION
                          Audit 2013-15106 – Revenue Billing
                                  Invoice Preparation
                               EXECUTIVE SUMMARY

    What the OIG Found

        Our audit of TVA’s Revenue Billing invoice preparation process for LPCs
        during the period April 1, 2011, through July 31, 2013, found:

        1. Wholesale invoices were calculated correctly.

        2. Controls to prevent/detect invoice errors were adequate.

        3. Oracle Utilities had appropriate/adequate IT general and application
           level controls.

        However, we identified some minor issues where changes could
        strengthen and/or improve the revenue billing process and may decrease
        the likelihood of errors or adjustments.

        Per TVA personnel, beginning in January 2013 monthly meetings between
        the various departments involved with the invoicing process have been
        conducted to review adjustments and the higher risk areas to improve the
        process. As of July 31, 2013, the number of adjustments made by
        Power Billing and Revenue Billing had decreased 48 percent from fiscal
        year 2012.

    What the OIG Recommends

        We recommend TVA’s Vice President and Controller, Corporate
        Accounting, and the Senior Vice President, Transmission, coordinate as
        appropriate to address the following recommendations:

        1. Maintain e-mail approvals that document the rate change control was
           performed, as required for Sarbanes-Oxley (SOX) testing, either on the
           share drive with appropriate restricted access or hardcopy.

            TVA Management’s Comments – TVA management agreed to
            maintain e-mail approvals on the Revenue share drive that documents
            the rate change control was performed. E-mail documentation was
            traditionally stored in this manner for wholesale rate changes and, as
            of March 2013, the monthly rate change e-mails are stored in this
            manner as well. (See Appendix B for management’s complete
            response.)

            Auditor’s Response – The OIG concurs with TVA management’s
            response and no further action is necessary.

Audit 2013-15106                                                             Page ii

                            TVA RESTRICTED INFORMATION
                           Audit 2013-15106 – Revenue Billing
                                   Invoice Preparation
                                EXECUTIVE SUMMARY

        2. Periodically review Power Billing’s controls to determine if they address
           atypical situations and/or could be strengthened to increase prevention
           or detection of errors and reduce adjustments.

            TVA Management’s Comments –TVA management stated the Meter
            to Cash team that meets on a monthly basis discusses each of the
            prior month and pending adjustments and looks at the root cause of
            each to determine if the controls in place are working properly or need
            to be modified. Power Billing and Revenue’s controls are being
            evaluated and strengthened when needed through this team effort.
            Additionally, the Power Billing group has internal team meetings
            monthly to discuss and brainstorm around any metering issues that
            have come up in the past month. Beginning with the roll forward
            testing period in October 2014, all SOX controls for Revenue and
            Power Billing have moved to a management testing model conducted
            by the Senior Program Manager, Revenue Quality. This will ensure
            that each control for both groups is being monitored internally and
            updated or revised as needed. (See Appendix B for management’s
            complete response.)

            Auditor’s Response – The OIG acknowledges and concurs the
            monthly Meter to Cash meetings are beneficial; however, this is a
            reactive control because issues are addressed only after they have
            occurred. The OIG concurs with TVA management’s plans for
            implementing the management testing model for the SOX controls by
            the Senior Program Manager, Revenue Quality, where each control is
            monitored and updated or revised as needed.

        3. Implement automated controls requiring appropriate approvals for
           adjustments based on established threshold amounts.

            TVA Management’s Comments – TVA management stated that as of
            May 2014, TVA has automated invoice adjustments associated with
            the revenue for kW and kWh. The automation should alleviate the
            concerns around the tiered review process since the majority of
            adjustments (dollar and volume related) will now be handled
            systematically. The current tiered review process will stay in place for
            any one-off adjustments that have to be made manually. (See
            Appendix B for management’s complete response.)

            Auditor’s Response – The OIG concurs with TVA management’s
            actions and no further action is necessary.


Audit 2013-15106                                                              Page iii

                             TVA RESTRICTED INFORMATION
                          Audit 2013-15106 – Revenue Billing
                                  Invoice Preparation
                               EXECUTIVE SUMMARY

        We recommend TVA’s Vice President and Controller, Corporate
        Accounting, and the Vice President, Pricing and Contracts, coordinate as
        appropriate, and:

        4. Automate the transmission of rate changes to Oracle Utilities from
           source systems. If automating transmission of rate changes is not
           considered cost beneficial, implement one common set of rate
           classification descriptions to increase the efficiency of updating the
           rates as well as reduce the risk of manual input errors.

            TVA Management’s Comments – TVA management agreed to move
            forward with the automation of rate changes to Lodestar from the
            source system. Automation of this process was being explored prior to
            the OIG audit, and Revenue Billing has participated in a working
            discussion with the IT department on how to attain this goal. The new
            process should be implemented no later than December 2014. (See
            Appendix B for management’s complete response.)

            Auditor’s Response – The OIG concurs with TVA management’s
            planned actions.




Audit 2013-15106                                                               Page iv

                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report


BACKGROUND
The Tennessee Valley Authority (TVA) is primarily a wholesaler of power. TVA
sells power to distributors (i.e., local power companies [LPC]) who then resell the
power to their end-use customers at retail rates. TVA had wholesale power
contracts with 155 LPCs as of September 30, 2013. TVA’s total electricity sales
were $10.8 billion during fiscal year (FY) 2013, and revenue from the LPCs was
$9.4 billion, or 87 percent. The remaining 13 percent came from TVA’s sales of
power to other entities (e.g., directly served customers and federal agencies).

TVA bills LPCs based on meter readings for demand (kilowatt [kW]) and energy
(kilowatt hours [kWh]) amounts delivered to the LPCs. The majority of the total
amount billed on each LPC invoice is demand and energy charges, which
consists of two components: (1) monthly kW and kWh comprised of daily meter
readings multiplied by (2) rates for the various classifications (e.g., residential
and commercial/industrial).

To produce the wholesale invoices, TVA utilizes the software package Oracle
Utilities, also referred to as Lodestar. The revenue billing invoice process begins
with kW and kWh meter readings being imported into Oracle Utilities where
wholesale rates are applied to the kW and kWh amounts along with the
calculation of charges and credits to generate the wholesale invoices and ends
when the LPCs are electronically notified the invoice has been generated. In
addition to the wholesale invoices, Oracle Utilities generates Power Billing
Summary Reports, which consists of the numerous kW and kWh readings
collected throughout the month. Oracle Utilities also creates the respective
entries that are input into TVA’s Enterprise Financial Management System
(general ledger). Oracle Utilities is considered an in-scope application for
Sarbanes-Oxley (SOX) compliance, which causes it to be tested on a yearly
basis for various information technology (IT) general controls.

Several groups within TVA are tasked with ensuring the monthly invoices are
complete and issued in a timely and accurate manner, including Revenue Billing,
Power Billing, Pricing and Contracts, Metering Services, Customer Resources,
and Transmission. Our audit focused on the Revenue Billing and Power Billing
departments’ roles and responsibilities in the revenue billing process. The Power
Billing department is responsible for identifying potential issues in the daily meter
data imported into Oracle Utilities and creating the Power Billing Summary
Reports (analysis and validity of the demand and energy readings). The
Revenue Billing department is responsible for ensuring the various rates are
correct within Oracle Utilities and that invoices are generated for all customers
from Oracle Utilities on a timely basis (accuracy and completeness of amounts
invoiced).

During our audit TVA reorganized and the Power Billing and Revenue Billing
departments, which were under one manager in the Financial Services
organization, were separated into two organizations. Power Billing is now part of
Audit 2013-15106                                                                Page 1

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report


the Right-of-Way and Meter Management organization, under the Transmission
division. Revenue Billing is now called “Revenue” and is part of the Corporate
Accounting organization under the Financial Services division; however, we refer
to this department as “Revenue Billing” in this report.

OBJECTIVES, SCOPE, AND METHODOLOGY
The Office of the Inspector General (OIG) included a review of the Revenue
Billing invoice preparation process on its annual audit plan because of the
significance of LPCs revenue to TVA. We audited Revenue Billing’s invoice
preparation for the period April 1, 2011, through July 31, 2013, to determine if:

1. Wholesale invoices to LPCs were calculated correctly.

2. Controls to prevent/detect invoice errors were adequate.

3. Oracle Utilities had appropriate/adequate IT general controls.

Our scope included verifying certain rate components and calculations for a
random sample of 20 out of 4,340 wholesale invoices billed to 19 of the 155 LPCs
during the audit period. We also obtained the invoice adjustment file for the audit
period and tested a judgmental sample of 20 out of 209 data records that were the
responsibility of the Revenue Billing and Power Billing departments. Our scope
did not include testing the accuracy of the demand and energy meter readings
imported into Oracle Utilities.

We also reviewed the IT general and application level controls associated with the
invoice preparation process except for controls related to System Planning/Risk
Assessment. These controls were reviewed by the OIG in Audit 2014-15059,
Federal Information Security Management Act, which identified issues TVA
management has indicated they will be addressing. A complete discussion of our
audit objectives, scope, and methodology are included in Appendix A.

FINDINGS
Our audit of TVA’s Revenue Billing invoice preparation process for LPCs during
the period April 1, 2011 through July 31, 2013 found:

1. Wholesale invoices were calculated correctly.

2. Controls to prevent/detect invoice errors were adequate.

3. Oracle Utilities had appropriate/adequate IT general and application level
   controls.

We identified some minor issues where we believe changes could strengthen
and/or improve the revenue billing process and may decrease the likelihood of
Audit 2013-15106                                                                Page 2

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report


errors or adjustments. The following provides a detailed discussion of our
findings.

WHOLESALE INVOICES CALCULATED CORRECTLY
To obtain a better understanding of the revenue billing process as well as the
business controls identified by management, we obtained the SOX controls and
results of TVA’s SOX testing. To determine if LPC wholesale invoices were
calculated correctly, we tested a sample of 20 invoices billed to LPCs during the
audit period. We found all invoices reviewed were calculated correctly; however,
we identified minor issues where changes could strengthen the revenue billing
process. Some of these issues were discussed with TVA Management; others
are discussed in more detail below. Specifically, we found:

   The SOX business controls over the invoice preparation process appeared to
    be properly designed to detect and prevent errors and help ensure the
    wholesale invoices were calculated correctly. However, except for testing
    one specific SOX control, we relied on our sample testing to identify controls
    that were not functioning properly.
   Demand and energy rates tested in our sample were accurate, indicating the
    related controls functioned properly; however, our testing of the SOX control
    found required e-mail approvals could not be located for 8 of 18 rate changes.
    Also, we found the “standard product” rates are manually updated in Oracle
    Utilities.

Credits and other charges tested in our sample were accurate and calculated
correctly, indicating the related controls functioned properly. Details of testing
performed and our results follow.

SOX Business Controls Appear Adequate
TVA’s SOX group provided a listing of 24 business controls applicable to the
wholesale invoice billing process during the audit period. We noted there were
15 controls identified by TVA as “key” in FY2013, and the status of 3 of these
controls was changed to being identified as a “key” control during the audit period
because of noted deficiencies. However, there were no outstanding deficiencies
associated with the 24 SOX controls as of our report date.

Based on our understanding of the invoice preparation process and controls, it
appears the SOX business controls were designed to detect and prevent errors
and ensure the wholesale invoices were calculated correctly. However, except
for testing the specific SOX control for updating rate changes (discussed below),
we relied on our sample testing of invoice accuracy and adjustments to identify
controls that were not functioning properly.




Audit 2013-15106                                                                Page 3

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                               Audit Report


Tested LPC Wholesale Demand and Energy Rates Accurate
TVA provides wholesale service to the 155 LPCs under three wholesale rate
designs, referred to as “standard products” (i.e., Time of Use, Modified Time of
Use, and Seasonal Demand and Energy), which consisted of 142 different kW
and 238 different kWh rates during the audit period. “Standard product” charges
are calculated by multiplying the total kW and kWh amounts used during the
month by the appropriate kW or kWh rate. In addition, TVA has other products
referred to as “price feed products.” The kW rates for these products are based
off of the Transmission Service Guidelines and the kWh rates are based off of
hourly prices fed into Oracle Utilities. We randomly selected a sample of
20 wholesale invoices out of the population of 4,340 invoices (0.5 percent). We
attempted to verify and/or recalculate all kW and kWh rates in our sample which
contained:

    82 different kW rates, consisting of:
       78 “standard product” rates.
       4 Start-up and Testing Power “price feed product” rates.
    169 different kWh rate components, consisting of:
      132 “standard product” rates.
      4 Start-up and Testing Power “price feed product” rates.
      33 fuel rates associated with energy.
    16 different fuel cost adjustment (FCA) rates.

All demand and energy rates as well as the FCA rates on invoices tested were
accurate.

While no errors were noted in the rates for the invoices tested, we did note the
Program Manager of Revenue Billing must manually convert and upload new
rate information received from Pricing and Contracts to Oracle Utilities annually.
Pricing and Contracts uses a different naming convention for the “standard
products” than the naming convention Oracle Utilities uses to generate the
wholesale invoices.

After the new rates have been uploaded, the Program Manager performs a final
review of the rates in the system and submits an e-mail approval back to the
manager. We tested this manual SOX control by requesting copies of the e-mail
approvals for the 2 base rate changes1 and the 16 monthly FCA rates applicable
to our sample of 20 invoices. Revenue Billing provided e-mail approvals for the
2 base rate changes and 8 of the 16 monthly FCAs. According to Revenue
Billing personnel, the 8 e-mail approvals could not be located because the
person, who was no longer at TVA, did not keep the e-mails on the same share
drive as the other e-mail approvals.

1
    The base rate changes occurred in April 2011 (when TVA switched from “end-use” billing to “wholesale”
    billing) and October 2011 (the adjustment for FY2012).
Audit 2013-15106                                                                                   Page 4

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report


Tested LPC Wholesale Credits and Nonenergy/Nondemand Charges
Accurate
To verify the credits and charges other than demand or energy on the 20 sample
invoices, we obtained supporting documentation as necessary and recalculated
the amounts billed. Our testing results showed credits and charges other than
demand and energy in our sample were accurate and calculated correctly,
indicating the related controls functioned properly.

CONTROLS TO PREVENT/DETECT LPC WHOLESALE INVOICE
ERRORS ADEQUATE
To further determine if the controls to prevent and/or detect errors in the LPCs
wholesale invoices were adequate, we tested a sample of 20 data records, which
consisted of 48 adjustments, and analyzed the total number of adjustments made
by Revenue Billing and Power Billing during the audit period.

Adjustments Made Accurately, but Strengthening Controls Could Decrease
Number of Adjustments
We obtained the adjustment file for the audit period which contained 209 data
records within our audit scope. Each of the data records represented one or
more adjustments associated with one or more identified errors. We selected a
random sample of 20 out of the 209 data records (10 percent) consisting of
6 Revenue Billing data records and 14 Power Billing data records with 48 total
adjustments. We tested the sample and reviewed the SOX testing results for the
applicable controls to determine if controls to prevent and/or detect adjustments
were adequate.

We found for 15 of the 20 sampled data records, which consisted of
20 adjustments, controls were adequate and/or TVA proactively took action to
strengthen/improve the control that allowed an exception to occur. For these
15 data records, we believe no additional actions by TVA are necessary.

For the remaining 5 sampled data records, which consisted of 28 adjustments,
the errors that led to these adjustments are not typical; therefore, the existing
controls were not designed to address these types of items. Controls should be
proactively reviewed on a periodic basis to determine if they address atypical
situations and if they could be strengthened to increase prevention or detection
of errors and reduce adjustments.

Number of Adjustments During the Audit Period Decreased
Our analysis of the 209 data records, which consisted of 551 adjustments made
during the audit period attributable to Revenue Billing and Power Billing, found
fewer adjustments were made during the 10 months of FY2013 than each of the
previous two FY’s in our audit period. We noted the total number of these
adjustments decreased by 48 percent from FY2012 to July 31, 2013.


Audit 2013-15106                                                              Page 5

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                              Audit Report


TVA personnel stated monthly meetings began between the various groups
involved in the billing process including: Customer Service, Pricing and
Contracts, Transmission, and Metering Services, in addition to Revenue Billing
and Power Billing in January 2013. We were told they now review each of the
prior month’s adjustments, discuss the root cause of each adjustment, and
identify areas of high risk to determine if changes to controls need to occur or
new controls need to be implemented in these meetings. It appears these
monthly meetings are achieving the desired results based on the notable
decrease in the number of adjustments in the first 10 months of FY2013. As of
July 31, 2013, the number of adjustments made by Power Billing and Revenue
Billing had decreased 48 percent from FY2012.

ACCEPTABLE IT GENERAL AND APPLICATION LEVEL
CONTROLS OVER ORACLE UTILITIES
We reviewed the SOX testing and corresponding results for IT general controls
and IT application controls for data input, rejected transactions, and output. Our
reviews of these controls indicated, overall, they were appropriate and adequate
to detect/prevent invoice errors. However, we identified a manual control that, if
automated, could decrease the risk of improper adjustments and noted access
control should be reviewed and updated.

Acceptable IT General Controls
IT general controls apply to all system components, processes, and data, and
their purpose is to ensure the proper development and implementation of
applications (i.e., programs), as well as the integrity of programs, data files, and
computer operations. To generate wholesale invoices, multiple systems are
utilized to either collect, provide, or generate information during the billing invoice
process. After kW and kWh meter readings are automatically collected and input
into the Itron Enterprise Edition (IEE)/Meter Data Management (MDM) system,
they are fed via the Billing Data Interchange (BDI) into Oracle Utilities where
appropriate rates are applied. Other systems (e.g., Electric Sales Statistics and
Real Time Pricing) feed data into Oracle Utilities that is used to calculate other
charges and credits, and then the LPC wholesale invoices are generated from
Oracle Utilities.

TVA’s SOX group tested four of the six IT general controls on a regular basis
during the audit period. TVA’s SOX group did not test security planning or
auditing/monitoring; however, the OIG tested security planning as part of
Audit 2014-15059, Federal Information Security Management Act, and identified
issues that TVA management indicated they will be addressing. Therefore, we
did not review security planning during this audit. The OIG tested auditing and
monitoring during this audit.

For the remaining four IT general controls, our review of SOX testing and
corresponding results indicated acceptable implementation governing the
operation of the Oracle Utilities system. Based on our testing, our review of the
Audit 2013-15106                                                                  Page 6

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                     Audit Report


SOX detail testing documentation, reperformance of selected SOX testing, and
review of SOX employee qualifications and independence, we determined we
could rely on the IT general controls unless our sample testing identified controls
that were not functioning properly. The five IT general controls tested by SOX
and the OIG and the corresponding results are listed in Table 1 below.

                        OIG Review of IT General Controls Testing
                     Control                               Results of SOX Testing

 Change Control                               Acceptable

 Contingency Planning                         Acceptable

 Auditing and Monitoring                      Acceptable

 Configuration Management                     Tested as part of Change Control, Acceptable

 Access to Programs and Data                  Acceptable
                                                                                       Table 1

Acceptable IT Application Level Controls
We reviewed controls for data input, rejected transactions, and data output, (IT
application level controls). Our review of the IT input controls noted edit routines
are a core part of the Oracles Utilities application and are how changes and/or
adjustments to demand and energy data are made if needed. Automated
controls, including change control processes and access controls, exist that
prevent unauthorized changes to Oracle Utilities program functionality, such as
calculations and tables. Our review of the IT output controls indicated the
wholesale invoices, which have confidential information, are protected on TVA
Online Connections from view and changes from unauthorized individuals.
During our review of rejected transactions, we noted automated controls exist to
notify appropriate personnel that meter data transactions have been rejected or
errors have occurred.

While these reviews indicated the application controls for data input, rejected
transactions, and output were appropriate and adequate to detect/prevent invoice
errors, we did note an area where improvement could be made. One input
control required different individuals’ approval for various adjustment amounts.
However, this is a manual control rather than an automated control allowing
adjustments to be processed by the system without approval.




Audit 2013-15106                                                                         Page 7

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Audit Report


RECOMMENDATIONS
We recommend TVA’s Vice President and Controller, Corporate Accounting, and
the Senior Vice President, Transmission, coordinate as appropriate to address
the following recommendations:

1. Maintain e-mail approvals that document the rate change control was
   performed as required for SOX testing, either on the share drive with
   appropriate restricted access or hardcopy.

    TVA Management’s Comments – TVA management agreed to maintain
    e-mail approvals on the Revenue share drive that documents the rate change
    control was performed. E-mail documentation was traditionally stored in this
    manner for wholesale rate changes and, as of March 2013, the monthly rate
    change e-mails are stored in this manner as well. (See Appendix B for
    management’s complete response.)

    Auditor’s Response – The OIG concurs with TVA management’s response
    and no further action is necessary.

2. Periodically review Power Billing’s controls to determine if they address
   atypical situations and/or could be strengthened to increase prevention or
   detection of errors and reduce adjustments.

    TVA Management’s Comments –TVA management stated the Meter to
    Cash team that meets on a monthly basis discusses each of the prior month
    and pending adjustments and looks at the root cause of each to determine if
    the controls in place are working properly or need to be modified. Power
    Billing and Revenue’s controls are being evaluated and strengthened when
    needed through this team effort. Additionally, the Power Billing group has
    internal team meetings monthly to discuss and brainstorm around any
    metering issues that have come up in the past month. Beginning with the roll
    forward testing period in October 2014, all SOX controls for Revenue and
    Power Billing have moved to a management testing model conducted by the
    Senior Program Manager, Revenue Quality. This will ensure that each
    control for both groups is being monitored internally and updated or revised
    as needed. (See Appendix B for management’s complete response.)

    Auditor’s Response – The OIG acknowledges and concurs the monthly
    Meter to Cash meetings are beneficial; however, this is a reactive control
    because issues are addressed only after they have occurred. The OIG
    concurs with TVA management’s plans for implementing the management
    testing model for the SOX controls by the Senior Program Manager, Revenue
    Quality, where each control is monitored and updated or revised as needed.




Audit 2013-15106                                                             Page 8

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report


3. Implement automated controls requiring appropriate approvals for
   adjustments based on established threshold amounts.

    TVA Management’s Comments – TVA management stated that as of May
    2014, TVA has automated invoice adjustments associated with the revenue
    for kW and kWh. The automation should alleviate the concerns around the
    tiered review process since the majority of adjustments (dollar and volume
    related) will now be handled systematically. The current tiered review
    process will stay in place for any one-off adjustments that have to be made
    manually. (See Appendix B for management’s complete response.)

    Auditor’s Response – The OIG concurs with TVA management’s actions
    and no further action is necessary.

We recommend TVA’s Vice President and Controller, Corporate Accounting, and
the Vice President, Pricing and Contracts, coordinate as appropriate, and:

4. Automate the transmission of rate changes to Oracle Utilities from source
   systems. If automating transmission of rate changes is not considered cost
   beneficial, we recommend implementing one common set of rate
   classification descriptions to increase the efficiency of updating the rates as
   well as reduce the risk of manual input errors.

    TVA Management’s Comments – TVA management agreed to move
    forward with the automation of rate changes to Lodestar from the source
    system. Automation of this process was being explored prior to the OIG
    audit, and Revenue Billing has participated in a working discussion with the IT
    department on how to attain this goal. The new process should be
    implemented no later than December 2014. (See Appendix B for
    management’s complete response.)

    Auditor’s Response – The OIG concurs with TVA management’s planned
    actions.
    .




Audit 2013-15106                                                               Page 9

                                  TVA RESTRICTED INFORMATION
                                                                     APPENDIX A
                                                                      Page 1 of 4

OBJECTIVES, SCOPE, AND METHODOLOGY
Our audit objectives were to determine if: (1) wholesale invoices were calculated
correctly, (2) controls to prevent/detect invoice errors were adequate, and
(3) Oracle Utilities (previously Lodestar) had appropriate/adequate information
technology (IT) general and application controls. We performed the following to
accomplish our objectives:

   To determine if wholesale invoices were calculated correctly, we:
     Pulled a random sample of 20 out of 4,340 (0.5 percent) wholesale local
       power company (LPC) invoices, and:

       1. Initially, we selected a statistical random sample of 203 out of
          4,340 wholesale LPC invoices (4.6 percent of population). However,
          after we began tracing all components of each invoice, we realized it
          would take much longer to verify all 203 sample invoices than originally
          estimated based on our available resources. Therefore, we decided to
          pull a nonstatistical random sample of 20 invoices from the random
          statistical sample of 203 invoices to test. We determined the demand
          and energy charges on the 20 sample invoices was 99.6 percent of the
          total dollar charges on the invoices (not including credits), and
          93.2 percent of the absolute total dollar value of the invoices (including
          credits). We decided we would evaluate whether or not we should
          expand the sample and perform additional invoice testing based on our
          testing results from verifying the total demand and energy charges on
          the 20 invoices. We found no errors associated with the demand and
          energy rates on the 20 invoices and determined those demand and
          energy rates represented 55 percent of the “standard product” demand
          and energy rates available to the LPCs during the audit period. Based
          on our testing results, we determined additional testing of invoices was
          not necessary. Because we did not verify the information on the entire
          statistical sample (203 invoices), we did not project the sample results
          to the population.

       2. Verified demand and energy rates on the 20 sample invoices by
          obtaining source documentation (e.g., wholesale contracts and rate
          schedules) and recalculating the rate.

       3. Verified the credits and other charges (nondemand/nonenergy) by
          obtaining source documentation (e.g., customer contracts and
          agreements for credit programs, such as Enhanced Growth Credit and
          Small Manufacturing Credit) and recalculated the amounts. For
          Minimum Bill Adjustments, Enhanced Growth Credits, Generation
          Partners (credits), and Green Power (credits), we recalculated the
          components listed on the invoice and obtained applicable supporting
          documentation maintained by the Tennessee Valley Authority (TVA)
          without exception. We did not obtain the applicable individual end-use
          customer contracts and/or data maintained only at the LPC.
                            TVA RESTRICTED INFORMATION
                                                                    APPENDIX A
                                                                     Page 2 of 4

          For Discounted Energy Unit (credits) and Start-up and Testing Power
          Margin (adjustments) we obtained supporting documentation
          (spreadsheets) from TVA personnel and traced the amount to the
          invoice without exception. We did not verify all components of the
          spreadsheet or recalculate the amounts because of the complexity of
          the calculations, and the amounts for these six credits and other
          charges represented less than 0.3 percent of the total amount billed on
          the invoice.

       4. Reviewed documentation regarding how rate changes are tracked
          and entered for billing purposes. We tested the manual Sarbanes-
          Oxley (SOX) control regarding rate change verification for rates
          applicable to the sample of 20 invoices.

   To determine if controls to prevent/detect invoice errors were adequate, we:
     Obtained an understanding of the processes and procedures related to
       TVA Revenue Billing and invoicing of LPCs. To accomplish this, we:

       1. Obtained and reviewed organizational charts applicable to the audit
          period.

       2. Interviewed the senior manager, manager, program manager, and
          other relevant personnel of Revenue Billing and Power Billing.

       3. Obtained and reviewed TVA’s Standard Programs and
          Processes (SPP); TVA-SPP-13.60, Revenue (effective November 7,
          2012), and FSO-SPP 13.62, Power Billing (Draft version).

       4. Obtained and reviewed TVA-SPP-13.064, TVA Meter to Cash Process
          (effective October 1, 2013), after the audit period.

       5. Obtained documentation and created a flowchart of the various
          systems.

     Obtained information on SOX PMO controls and/or processes in place to
      prevent/detect invoice errors by interviewing key personnel.
     Obtained a listing of all invoice adjustments identified during the audit
      period, determined which adjustments were specifically the responsibility
      of either Revenue Billing or Power Billing (209 data records, which
      consisted of 551 adjustments), and chose a sample of 20 data records
      (10.45 percent). We determined we would use nonstatistical, random
      sampling rather than statistical due to the small population. Therefore, we
      did not project the sample results to the population. For that sample of
      20 data records, which was 48 adjustments, we determined:

       1. Why the error occurred,

       2. How the error was identified, and

       3. Whether or not the appropriate action was taken.
                           TVA RESTRICTED INFORMATION
                                                                       APPENDIX A
                                                                        Page 3 of 4

     Discussed controls in place with Revenue Billing and Power Billing to see
      if any were in place to identify repeat errors.
   To determine if Oracle Utilities had appropriate/adequate IT general controls,
    we reviewed and summarized TVA’s SOX detail testing results, performed
    testing, reviewed applicable policies and procedures, and discussed
    procedures with Revenue Billing and Power Billing personnel for IT general
    controls to determine if controls were in place for:

    1. Change Control – Reviewed SOX testing.

    2. Contingency Planning – Reviewed SOX testing.

    3. Auditing and Monitoring – The Office of the Inspector General tested.

    4. Configuration Management – Reviewed SOX testing.

    5. Access to Programs and Data – Reviewed SOX testing.

    Based on our testing, our review of the SOX detail testing documentation,
    reperformance of selected SOX testing, and review of SOX employee
    qualifications and independence, we determined we could rely on the IT
    general controls and application controls unless our sample testing identified
    controls that were not functioning properly.

    Our audit of Oracle Utilities general IT controls did not include controls related
    to System Planning/Risk Assessment. These controls were reviewed by the
    Office of the Inspector General in Audit 2014-15059, Federal Information
    Security Management Act, which identified issues TVA management has
    indicated they will be addressing.
   To determine if Oracle Utilities had appropriate/adequate application controls
    for:

    1. Data Input – We determined where the invoice inputs originated, who
       approved the invoices, and what controls existed to ensure all LPCs were
       invoiced, and the correct demand and energy amounts were billed. This
       included gaining an understanding of and testing data (IT) input
       procedures. Specifically, we obtained the approval levels and determined
       whether the responsibility assigned for verifying appropriate approvals
       were consistently applied. We also determined whether individuals
       responsible for entering data had been trained on the preparation, entry,
       and control of input; edit routines were embedded within the application;
       and controls existed to prevent unauthorized changes to the system.

    2. Rejected Transactions – We verified transaction controls were in place to
       notify the process owner when transactions were rejected or errors
       occurred, and reports existed to identify and track reprocessing of rejected
       transactions.
                             TVA RESTRICTED INFORMATION
                                                                      APPENDIX A
                                                                       Page 4 of 4

    3. Data Output – We obtained data output procedures and verified
       individuals responsible for data entry were trained and verified the data
       output. We also verified the output: (a) was reviewed against source
       documents and (b) for sensitive or confidential information and how it is
       protected.

When evaluating the results of our audit work, we used both quantitative and
qualitative factors when considering the significance of an item. The quantitative
factor we considered in determining an item’s significance was:

   If the dollar value of an error(s) exceeds 0.5 percent of TVA’s 2012 revenue it
    would be considered significant; therefore, the threshold for quantitative
    significance is $47.5 million.

The qualitative factor(s) we considered in determining an item’s significance
were:

   If TVA gives preferential treatment to certain distributors, or
   If the item impacts TVA revenue or reputation by violating policies and
    procedures or Power Contracts.

Our audit scope included all wholesale invoices from April 1, 2011, through
July 31, 2013, billed to the 155 LPCs and the controls applicable to preparing the
invoices during the audit period. Our scope did not include verifying the
completeness and accuracy of the meter readings imported into Oracle for
demand and energy. Our fieldwork was conducted between August 2013 and
July 2014.

This performance audit was conducted in accordance with generally accepted
government auditing standards. Those standards require we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                             TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 1 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 2 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 3 of 3




TVA RESTRICTED INFORMATION
